Semi-Annual Report to Congress:  Fall 2004 | The U.S. Small Business Administration | SBA.gov
Skip to main content
Jump to Main Content
An Official Website of the United States Government
Translate
LoginSBA LoginUsing valid employee GLS loginRegister
Search form
Search SBA
Contact SBA
Contacto (en español)
Newsroom
Community
For Lenders
Email Updates
Blogs
Starting & ManagingStarting a BusinessThinking About Starting
Create Your Business Plan
Choose Your Business Structure
Register Your Business
Obtain Business Licenses
Learn About Business Laws
Finance Your Business
Explore Loans, Grants and Funding
Filing & Paying Taxes
Choosing Your Business Location & Equipment
Hire & Retain Employees
Managing a BusinessLeading Your Company
Growing Your Business
Exporting
Running a Business
Business Law & Regulations
Getting Out
Business Guides by Industry
Local Resources
Health Care
Forms
Loans & GrantsSmall Business LoansWhat SBA Offers to Help Small Businesses Grow
SBA Loan Programs
How to Prepare Your Loan Application
Find Small Business Loans
Surety Bonds
SBIC Program
GrantsFacts About Government Grants
Research Grants for Small Businesses
Find Grants
Other Financial AssistanceVenture Capital
Find Loans, Grants & Other Assistance
ContractingGetting StartedAm I a Small Business?
SBA's Role in Government Contracting
Identifying Industry Codes
Small Business Size Standards
D-U-N-S Number
Register for Government Contracting
Contracting Support for Small BusinessesDetermining Business Size
8(a) Business Development
HUBZone Program
Service-Disabled Veterans
Small Disadvantaged Businesses
Women-Owned Small Businesses
Certificates of Competency
Size Protests
Natural Resources Assistance
Commercial Market Representatives
Report Fraud
Understanding the Federal MaketplaceContracting Resources for Small Businesses
Contract Responsibilities
Contracting Regulations for Small Businesses
Sub-Contracting
Small Business Utilization Scorecards
For Contracting OfficialsHUBZone
Non-Manufacturer Waivers
Report Fraud, Waste & Abuse
Protests
OSDBU
Small Business Goaling
Federal Aquisition Regulations (FAR)
Certificate of Competency Program
Procurement Center Representatives
Government Contracting Field Staff Directory
Service Contract Inventory
Partnership Agreements
Goaling Program
Interagency Task Force on Federal Contracting Opportunities for Small Businesses
Learning Center
Local AssistanceSBA District Offices
Small Business Development Centers
U.S. Export Assistance Centers
Certified Development Companies
Procurement & Technical Assistance Centers
SCORE Chapters
Women's Business Centers
Veteran's Business Outreach Centers
Disaster Field Offices
SBA Regional Offices
About SBAWhat We DoMission
History
Authority
Resource Guides
SBA TeamThe SBA Administrator
SBA Leadership
Jobs at SBA
SBA LocationsHeadquarters Offices
Regional Offices
District Offices
Disaster Offices
SBA NewsroomNews & Press Releases
Disaster Press Releases
Speeches
Congressional Testimony
Weekly Lending Report
Media & Press Contacts
Regional & Local Media
Fiscal Year 2012 Budget Summary
Press Release Archive
SBA InitiativesSBA Emerging Leaders Initiative
Clusters Initiative
7(j) Management and Technical Assistance Services Program
Small Business Teaming Pilot Program
Small Business Jobs Act of 2010
Startup America
Council on Underserved Communities (CUC)
Intermediary Lending Pilot
Greening SBA
Small Business Saturday 2013
SBA PerformanceStrategic Planning
Performance & Budget
Open Government
SBA Data Store
Policy & Regulations
Oversight & AdvocacyInspector General
Advocacy
Hearings & Appeals
Ombudsman
About SBA Section
What We DoMission
History
Authority
Resource Guides
Contact SBA
Contacto (en español)
SBA TeamThe SBA Administrator
SBA LeadershipSBA Chief of Staff
Jobs at SBA
SBA LocationsHeadquarters Offices
Regional Offices
District Offices
Disaster Offices
SBA NewsroomNews & Press Releases
Disaster Press Releases
Speeches
Congressional Testimony
Weekly Lending Report
Media & Press Contacts
Regional & Local Media
Fiscal Year 2012 Budget Summary
Press Release Archive
SBA PerformanceStrategic PlanningSBA Strategic Plan Fiscal Years 2011 - 2016
SBA Strategic Plan Fiscal Years 2014-2018
SBA Final Plan for Retrospective Analysis of Existing Rules
SBA IRM Strategic Plan
Performance & BudgetCongressional Budget Justification/Annual Performance Reports
Agency Financial ReportsFY 2013 Agency Financial Report (AFR)
FY 2012 Agency Financial Report (AFR)
FY 2011 Agency Financial Report (AFR)
FY 2010 Agency Financial Report (AFR)
FY 2009 Agency Financial Report (AFR)
FY 2008 Annual Performance Report (APR)
Performance and Financial ReportsFY 2013 Summary of Performance and Financial Information
FY 2011 Summary of Performance and Financial Information
FY 2012 Summary of Performance and Financial Information
FY 2010 Summary of Performance and Financial Information
FY 2009 Summary of Performance and Financial Information
FY 2008 Citizens' Report (Performance and Financial Highlights)
Small Business Administration (SBA) Loan Program Performance
Other Performance InformationFY 2014 Verification and Validation Forms
Program Inventory
Recovery Act Reports
Open GovernmentInformation QualityInformation Quality Guidelines
SBA Information Quality Peer Review Agenda
Website Content Inventory
SBA Records Management
Digital SBASBA's Digital Strategy
Security & Privacy
Governance Approach Summary and Documentation
About the SBA.gov WebsiteBusiness Licenses and Permits Search Tool
Business Loans and Grants Search Tool
Download Small Business Widgets for Your Website
Social Media
Linking Policy
No Fear Act
Accessibility
Privacy Policy
Disclaimer
FOIAGeneral FOIA Information
Online FOIA Request
SBA Guide to Public Information
Information Generally Exempt From Disclosure and Information Generally Releasable
Public Liaisons and FOIA Staff
Privacy Act
Privacy Act Request Guide
SBA FOIA Quarterly Reports
SBA FOIA Annual Reports
Frequently Requested Records
President Obama's FOIA Memorandum and FOIA Text
FOIA Resources
Chief FOIA Officer Reports
EO Plan
FOIA SOP
Other Plans & ReportsPlain Language Page
SBA Open Government Report 2014
2013 Federal Employee Survey Results
FY 13 Conferences & Events Above $100K Report
FY 12 Conferences & Events Above $100K Report
FY 13 Advanced Acquisition Strategies
The Small Business Agenda
Information Technology Strategic Plan
Data Consolidation Plan
Draft Environmental Justice Strategic Plan
SBA Customer Service Plan
SBA Vendor Communication Plan
SBA Open Government Plan
SBA Open Government Plan 2012-2014
SBA Plan for Operating in the Event of a Lapse in Appropriations
Retrospective Review of RegulationsFirst Quarter 2012 Retrospective Review Reports
Second Quarter 2012 Retrospective Review Report
Third Quarter 2012 Retrospective Review Report & Burden Reduction Initiative
Fourth Quarter 2012 Retrospective Review Report
5th Retrospective Review Report
January 2014 Retrospective Review Update
July 2014 Retrospective Review Update
SBA Data StoreWeb Service APIBusiness Licenses & Permits API
Loans & Grants Search API
Recommended Sites API
U.S. City and County Web Data API
Content Share API
Lender Search API
Open Government Data Sources
Policy & RegulationsStandard Operating ProceduresSOP Lender Supervision and Enforcement
SBA Forms
Laws & RegulationsCode of Federal Regulations (CFR)
Public Laws (PL)
Laws & Regulations Resources
SBA Significant Guidance Documents
Public NoticesNotice of ACORN Funding Restriction
Eliminating Fraud, Waste & AbuseEnforcement Actions of NoteSBA Obtains $256K Judgment Against Fraudulent Medico
Statement from SBA Administrator Karen Mills on the Revocation of EDF's Authority to Participate in the 504 Loan Program
SBA Revokes Authority of SEM REsource Capital to Participate in the 504 Loan Program
Contracting Search: Suspensions and Debarments
Lending Search: Suspensions and Debarments
Narratives: Suspensions and Debarments
Oversight & AdvocacyInspector General
Advocacy
Hearings & Appeals
Ombudsman
SBA InitiativesSupplierPay InitiativeParticipating Companies
SupplierPay Case Studies
QuickPay Background
SupplierPay Pledge
SBA Emerging Leaders Initiative
Clusters InitiativeAbout the Clusters Initiative
SBA Invests in Over 40 Clusters Throughout the US
Clusters Map
7(j) Management and Technical Assistance Services Program
Small Business Teaming Pilot ProgramAbout the Small Business Teaming Pilot Program
Small Business Teaming Pilot Program Grantees
Small Business Jobs Act of 2010
Startup AmericaAbout Startup America
Startup America: Reducing Barriers Roundtables
Council on Underserved Communities (CUC)
Intermediary Lending PilotIntermediary Lending Pilot Program
Intermediary Lending Pilot (ILP) Program Forms
Greening SBAStrategic Sustainability Performance Plan
FY 2012 Climate Change Adaptation Plan
Small Business Saturday 2013
SBA and Yelp Present: Success With Online Reviews
Semi-Annual Report to Congress:  Fall 2004
Date Issued:
Friday, October 1, 2004
The attached report details the Office of Inspector General's Fall 2004 Semiannual Report to Congress. The following topics are included:
•Overview of the SBA and the OIG
•Small Business Access to Capital
•Disaster Loan Program
•Procurement Assistance
•Agency Management
•Other Significant OIG Activities
•Statistical Highlights
•Appendices
Log in or register to post comments
Latest HeadlinesSkip to Agency information
SBA and Virgins Islands SBDC to Conduct Procurement Seminars for Small Businesses
Bennington to hold public meeting about small business financing Aug 18
SBA Takes Part in Millennial Trains Project to Reach Entrepreneurs Across the Country
More SBA News
Additional Resources
Strategic Plan
Small Biz Jobs Act of 2010
SBA Leadership
Blogs
In Partnership with Business USA
Aid, counsel, assist and protect, insofar as is
possible, the interests of small business concerns.
Sign up for e-mail updates.
Customer Service
About SBA
Contact SBA
Contacto (en español)
Media and Press Relations
SBA Locations
SBA Team
About SBA.gov
Site Map
Privacy Policy
Linking Policy
Accessibility
Disclaimers
Social Media
Data Store
SBA Information
Freedom of Information Act
No Fear Act
Report Fraud, Waste, and Abuse
Initiatives
Plain Language
SBA Performance
Strategic Planning
Performance and Budget
Open Government
Policy and Regulations
Eliminating Fraud, Waste and Abuse
Advocacy & Oversight
Inspector General
Advocacy
Hearings and Appeals
Ombudsman
Tools and Features
Online Training
Create a Business Plan
Find Events
Qualify for Government Contracts
Analyze Your Business
SBA Partners
WhiteHouse.gov
USA.gov
Regulations.gov
BusinessUSA.gov